ORIGINAL

5124

Supreme Court, U.S.
FILED

JUL 1 1 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

DERRICK D. WILSON, II,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks for leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis. Petitioner has previously
been granted leave to proceed in forma pauperis in the following court(s):
United States District Court for the Northern District of New York,
United States v. Wilson, 5:14-cr-0273 (GTS); United States v. Wilson, 16-3701
(2d Cir.); and United States Court of Appeals for the Second Circuit,
United States v. Wilson, 20-2965.
Petitioner's affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and the appointment was made under the

1

RECEIVED
JUL 14 2021

JBSg&aass-gy

following provision of law: Criminal Justice Act, 18 U.S.C. ยง 3006A; and Petitioner was
granted the rights to proceed in forma pauperis as a pro se litigant when filing his
certificate of appealability in the current proceeding.
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct.
Executed on July 10th, 2021.
/s/Derrick Wilson, Pro Se
Reg. No. 21481-052
Federal Correctional Complex
P.O. Box 5000
Yazoo City, MS 39194

2

